                        IDAHO MIGRANT COUNCIL, INC.
                             CALDWELL, IDAHO
                                   ***

                              AUDIT REPORT ON
                     U.S. DEPARTMENT OF LABOR GRANT
                            NUMBER AC-10730-00-55



                               Performance Audit for
                   Program Year July 1, 2000 through June 30, 2001




This audit was performed by Harper, Rains, Knight & Company, P.A., under contract to the
Inspector General, and, by acceptance, it becomes a report of the Office of Inspector
General.


                                                __________________________________
                                                 Assistant Inspector General for Audit




                                               Report Number: 21-04-002-03-365

                                                Date Issued: March 10, 2004
                                             TABLE OF CONTENTS




                                                                                                                                       Page

ACRONYMS ............................................................................................................................ i

EXECUTIVE SUMMARY ...................................................................................................... 1

INTRODUCTION AND BACKGROUND ............................................................................. 3

OBJECTIVES, SCOPE, AND METHODOLOGY.................................................................. 4

AUDITOR’S REPORT ON PERFORMANCE ....................................................................... 6

FINDINGS ................................................................................................................................ 7

1. All Sampled Participants Were Eligible. ............................................................................. 7

2. Unsupported or Unallowable Costs Were Charged to the Indirect Cost Pool ..................... 7

3. Payroll Record Documentation Needs Improvement .......................................................... 9

4. Performance Data Reported To ETA Were Accurate and Supported................................ 10


SCHEDULES

    Schedule A - Schedule of Costs Reported ......................................................................... 11

    Schedule A-1 - Schedule of Costs Reported, Supplemental Information.......................... 12

    Schedule B - Schedule of Performance Reported.............................................................. 13

    Schedule C - Schedule of Questioned Costs...................................................................... 16



APPENDIX

Appendix A –Idaho Migrant Council’s Written Response to Draft Report ............................17
                                 ACRONYMS


CFR    -   Code of Federal Regulations

DOL    -   U.S. Department of Labor

DMSF   -   Division of Migrant and Seasonal Farmworkers

ESL    -   English as a Second Language

ETA    -   Employment and Training Administration

FSR    -   Financial Status Report

GED    -   General Equivalency Diploma

NFJP   -   National Farmworker Jobs Program

OMB    -   Office of Management and Budget

OIG    -   Office of Inspector General

WIA    -   Workforce Investment Act




                                          i
                                 EXECUTIVE SUMMARY

The U.S. Department of Labor (DOL), Office of Inspector General (OIG), contracted with
Harper, Rains, Knight & Company, P.A., to perform an audit of the Workforce Investment Act
National Farmworker Jobs Program to determine whether the program was operating in
accordance with applicable regulations. DOL provides 53 grants to states and nonprofit
organizations to operate the program within 48 states and Puerto Rico. We selected a statistical
sample of nine grantees for review with the objectives to determine that the direct and indirect
costs claimed for reimbursement by these grantees were reasonable, allowable and allocable
under the cost principles set forth in OMB Circular A-122, or OMB Circular A-87, as
applicable, and grant guidelines, and performance reported to determine whether it was accurate
and properly supported. The Program was audited for program year 2000 (July 1, 2000 through
June 30, 2001).

DOL's Employment and Training Administration (ETA) awarded the Idaho Migrant Council
(IMC) a grant in the amount of $957,349 to provide training and services to eligible migrant and
seasonal farmworkers in the State of Idaho to strengthen their ability to achieve economic self-
sufficiency. During PY 2000, IMC placed 60 participants in unsubsidized jobs, provided 245
with supportive services and reported costs of $961,764.

Our audit results are summarized below.

   •   All Sampled Participants Were Eligible

       In our draft report, we stated that 2 participants out of our sample of 48 were not
       eligible, resulting in $1,275 of questioned costs. Based on additional evidence provided
       by IMC in response to our draft report, we have determined that the two participants met
       the eligibility requirements. Accordingly, the final report contains no questioned costs
       related to participant eligibility.

   •   Unsupported or Unallowable Costs Were Charged to the Indirect Cost Pool

       We found unallowable legal fees totaling $47,521 in the indirect cost pool. In response
       to our draft report, IMC agreed with this finding and removed the legal fees from the
       indirect cost pool.

       We also found unsupported travel costs ($8,916) and costs related to a non-federal
       program ($132) in the indirect cost pool. IMC agreed with our findings but has not yet
       removed these costs from the indirect cost pool or otherwise reimbursed the Department.
       We question $914, the portion of the unallowable or unsupported indirect costs that
       would be absorbed by the DOL grant. See Schedule C for a summary of the questioned
       costs.


                                               1
   •   Payroll Record Documentation Needs Improvement

       We found that IMC payroll record documentation needs improvement. The records
       reviewed were not supported as required by OMB Circular A-122. In its response to our
       draft report, IMC agreed to take corrective action.

   •   Performance Data Reported to ETA Were Accurate and Supported

       We were able to verify the performance data totals reported to ETA. Testing of this data
       included reviewing the underlying support for the preparation of the Program Status
       Summary as a whole, and reviewing the reported program information for the sample of
       participants selected for testing. The results of our audit agreed with the reported
       outcomes for participants that exited the program.

Recommendations

We recommend that the Assistant Secretary of the Employment and Training Administration:

   1. recover $914 in questioned indirect costs, and

   2. ensure that IMC implements payroll policies and procedures that will adhere to the
      guidance in OMB Circular A-122 for payroll documentation.




                                              2
                       INTRODUCTION AND BACKGROUND



The Division of Migrant and Seasonal Farmworkers (formerly the Division of Seasonal
Farmworker Programs) within ETA is responsible for administering the National Farmworker
Jobs Program (NFJP). The intent of NFJP, under section 167 of the Workforce Investment Act,
is to strengthen the ability of eligible migrant and seasonal farmworkers and their families to
achieve economic self-sufficiency through job training and other related services that address
their employment related needs. Assistance from the NFJP is accessed through the NFJP
grantee partners and local One-Stop Centers.

IMC, a 501(c)(3) organization, has operated various employment and training programs serving
migrant and seasonal farmworkers in Idaho since 1983. IMC operates an administrative office
and education center in Caldwell with satellite offices in Payette, Canyon, Twin Falls, Cassia,
Bingham, and Bonneville counties. In addition to the Department of Labor (DOL) migrant
farmworkers grant, IMC operates other Federal, state and local grants. The largest grant is for
the Migrant Head Start education services, issued by the U.S. Department of Health and Human
Services.

IMC was awarded a grant in the amount of $957,349 to provide the following types of training
and services to eligible migrant and seasonal farmworkers:

   1. Classroom training - This training includes English-as-a-Second Language (ESL),
      General Equivalency Diploma (GED) classes, general employment skills classes, and
      vocational and technical job training.

   2. On-the-job training - This training activity involves a contractual placement of a
      participant in an actual work environment. This allows an employer to hire an employee
      and be reimbursed up to 50 percent of wages paid during a specified training period.

   3. Work experience - This training is to provide some non-farmwork employment
      experience to make a participant more attractive to prospective employers. In this
      program, the participant is paid by IMC and placed in the public or private nonprofit
      sector to obtain general employment skills.

   4. Other related assistance services - These services include emergency services to meet
      food, shelter and transportation needs, pesticide safety training while still in farmwork,
      and referrals to other assistance providers within the One-Stop network.




                                                3
                     OBJECTIVES, SCOPE, AND METHODOLOGY



The primary objectives of our audit were to determine whether the costs claimed by IMC for the
period July 1, 2000 through June 30, 2001, under the DOL grant were reasonable, allowable,
and allocable under the cost principles set forth in OMB Circular A-122 and grant guidelines,
and to determine that performance reported was accurate and properly supported.

Our audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Our audit included such tests of the accounting
records and other accounting procedures, as we considered necessary in the circumstances.

Our audit was performed using the criteria we considered relevant. These criteria included
those established by the Federal Government in: OMB Circulars A-110, Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals and
Non-Profit Organizations, and A-122, Cost Principles for Non-Profit Organizations; the
Workforce Investment Act of 1998 (WIA); 20 CFR Part 669 National Farmworker Jobs
Program under Title 1 of the WIA; and 29 CFR Parts 95 and 96, Administrative Requirements
and Audits of Federally Funded Grants, Contracts, and Agreements.

Management Controls

To meet the aforementioned objectives, we reviewed management controls over relevant
transaction cycles. Our work on established management controls included obtaining and
reviewing policies and procedures manuals, interviewing key personnel, and reviewing selected
transactions to observe the controls in place. Our testing related to management controls was
focused only on the controls related to our audit objectives of reviewing the reported cost and
performance data, and was not intended to form an opinion on the adequacy of management
controls, and we do not render such an opinion. Weaknesses noted in our testing are discussed
in the Findings section of this report.

Compliance with Laws and Regulations

In order to determine compliance with the above-mentioned laws and regulations, we performed
detailed tests of transactions, and tested a sample of participants who were enrolled in the
program during our audit period. Our detailed tests of transactions included both analytical
review and substantive tests of accounts. Our testing related to compliance with laws and
regulations was focused only on the laws and regulations relevant to our audit objectives of
reviewing the reported cost and performance data, and was not intended to form an opinion on
the compliance with laws and regulations as a whole, and we do not render such an opinion.
Instances of noncompliance are discussed in the Findings section of this report.

Our sample universe of participants included all participants enrolled during the period. In
program year 2000, IMC served 742 participants, of whom 352 exited during the year. Support
services only comprised the largest group of those exiting with a total of 245 participants (70
percent). Unsubsidized employment placements comprised the next largest group with a total
60 participants (17 percent). We reviewed a sample of 48 participant files. Our sampling
technique was a statistical random number selection so that all participants had an equal chance

                                               4
of being selected. Procedures performed on the selected participants included reviewing the
eligibility determination, reviewing the types of services provided and the cost of those services,
and reviewing the program outcome for those exiting the program.

The costs claimed and performance reported by IMC is presented on the Schedules of Costs
Claimed and Performance Reported in this report. These schedules, included as Schedules A
and B, respectively, in this report, are based on the information reported to ETA in the Financial
Status Report and the Program Status Summary.




                                                 5
                                   FINDINGS



FINDING 1: All Sampled Participants Were Eligible

During program year 2000, IMC provided training and services to over 700 participants.
To determine the effectiveness of IMC's management controls over participant eligibility, we
selected a sample of 48 participants. Twenty-eight of these participants received support
services/core services only and the remaining 20 received some type of intensive or training
services.

Our draft report found 2 of the 48 participants ineligible to receive services. Based on
additional evidence provided by IMC in response to our draft report (see Appendix A), we have
determined that the two participants met the eligibility requirements. Accordingly, this final
report contains no questioned costs related to participant eligibility.


FINDING 2:         Unsupported or Unallowable Costs Were Charged to the
                   Indirect Cost Pool

IMC claimed reimbursement for $56,569 in either unallowable or unsupported costs out of its
indirect cost pool total of $857,095. The $56,569 was comprised of $47,521 in unallowable
legal fees, $8,916 in unsupported travel costs and $132 for the unallowable purchase of award
plaques. The net effect on the farmworker grant based on the grant’s share of indirect costs was
$5,719.

The largest amount of the unallowable cost was $47,521 in legal fees paid to contest the results
of a Health and Human Services audit of the Migrant Head Start program. OMB Circular
A-122, Attachment B, Selected Items of Cost 10 (g.) states: “Costs of legal, accounting and
consultant services and related costs, incurred in defense against Federal Government claims or
appeals, antitrust suits, or the prosecution of claims or appeals against the Federal Government,
are unallowable.”

The single audit for the year ended June 30, 2001, questioned a total of $40,541 in unallowable
legal fees. However, we found an additional $6,980 in unallowable legal fees bringing the total
to $47,521. The $40,541 in costs questioned by the single auditor was never resolved by the
Department of Health and Human Services (HHS). The Federal Audit Clearinghouse
(Clearinghouse) sent the results of the single audit to HHS (the agency providing the
predominant amount of direct funding in fiscal 2000). The Clearinghouse did not notify the
Department of Labor of the single audit findings.



                                                7
In its response to our draft report, IMC stated the following:

   Legal fees in the amount of $47,521 were found not to be allowable costs.
   The IMC subsequently removed these charges from the Indirect Cost Pool
   and paid for them with non-federal funds. The final negotiated Indirect
   Cost Rate proposal reflects those changes. This correction was noted in the
   most current single audit (the relevant pages from the audit are attached).
   Therefore the proportionate share of for this disallowed cost needs to be
   removed from OIG’s final determination.

Based on IMC’s response, we have withdrawn questioned costs related to the charging of legal
fees to the Indirect Cost Pool.

We also found $8,916 in unsupported travel costs. There were no detailed expense reports with
actual invoices for review, so we could not discern the business purpose of the trip or review
detailed charges beyond what was on the credit card statements provided. OMB Circular A-122
Attachment A, General Principles, A.2.(g) states: “To be allowable under an award, costs must
meet the following general criteria: Be adequately documented.”

IMC stated that the $8,916 in unsupported travel costs is a matter still in litigation with IMC’s
former Executive Director. IMC anticipates recovery of these costs, but did not indicate that
any reimbursement has been made. Therefore, we question $901, the portion of unallowable or
unsupported costs that would be absorbed by the DOL grant. See Schedule C for a summary of
questioned costs.

The last item of unallowable cost charged to the indirect cost pool was $132 for award plaques
given to IMC scholarship recipients purchased with Federal funds. The IMC scholarship
program is not funded by Federal funds and should have been paid out of other funding sources.
OMB Circular A-122 Attachment A, General Principles B (1) states: “Direct costs are those that
can be identified specifically with a particular final cost objective, i.e., a particular award,
project, service, or other direct activity of an organization.”

We question $13, the portion of unallowable costs that would be absorbed by the DOL grant.
See Schedule C for a summary of questioned costs.

IMC stated that award plaques were purchased with Federal funds due to a coding error and
agreed to repay the funds.

Recommendation

We recommend that the Assistant Secretary for ETA recover the questioned costs of $914 ($901
related to the unsupported travel costs charged to the indirect cost pool and $13 related to the
unallowable costs related to the purchase of the award plaques).




                                                 8
FINDING 3:         Payroll Record Documentation Needs Improvement

Time and attendance records of hourly IMC personnel did not always offer adequate support to
document time worked on various grants. In addition, no breakdown of time was kept for
salaried employees. Timesheets for salaried employees consisted of a checkmark showing
whether the employee was present for the day. The primary method of allocation was by budget
estimates and past history, which is contrary to guidance issued by OMB.

All payroll charges, whether by hourly or salaried employees, must be properly supported.
OMB A-122 Attachment B, Selected Items of Cost, 7(m) states:

     Charges to awards for salaries and wages, whether treated as direct costs or
     indirect costs, will be based on documented payrolls approved by a responsible
     official(s) of the organization. The distribution of salaries and wages to awards
     must be supported by personnel activity reports, as prescribed in subparagraph
     (2), except when a substitute system has been approved in writing by the
     cognizant agency.

In addition, Attachment B, subparagraph (2) states: “Reports reflecting the distribution of
activity of each employee must be maintained for all staff members.” Also, “. . . reports must
reflect an after-the-fact determination of the actual activity of each employee. Budget estimates
(i.e., estimates determined before the services are performed) do not qualify as support for
charges to awards.”

Due to inadequate time and attendance records, we could not verify or dispute that the time
worked was correctly charged to the DOL grant. There is a possibility that time is not being
fairly charged for all time spent by all employees performing tasks for multiple grants.

In response to our draft report, IMC stated that it has (1) reviewed this issue with its FPOs in
response to an onsite review, and (2) instituted after the fact determinations of time and
activities to support program cost allocation.

Recommendation

We recommend that theAssistant Secretary for ETA ensure that IMC implements payroll
policies and procedures that will adhere to the guidance in OMB A-122 for payroll
documentation.




                                                 9
FINDING 4:              Performance Data Reported to ETA Were Accurate and
                        Supported

We reviewed the data reported by IMC on the Program Status Summary to determine whether
this information was accurate and properly supported. We were able to verify the overall totals
reported when we compared the information to the databases IMC maintained. A summary of
this data can be found on Schedule B - Schedule of Performance Reported.

Our testing of this data included reviewing the underlying support for the preparation of the
Program Status Summary as a whole, and reviewing the reported program information for the
sample of participants selected for testing. The results of our audit agreed with the reported
outcomes for participants who exited the program.




                                               10
                                                                                                  Schedule A

                                             IDAHO MIGRANT COUNCIL

                                        SCHEDULE OF COSTS REPORTED
                                         Program Year Ended June 30, 2001


                                        Financial Status Report               Reported

                                        1. Training                       $    815,128∗
                                        2. Administration                      146,636
                                           Total                          $    961,764

Terms Used Above

Classroom Training:          Expenses related to participants provided some form of organized classroom training.
                             Generally includes tuition costs, stipends, and support provided while in training.

On the Job Training:         Expenses paid to reimburse an employer for half of the wages paid to a participant
                             during a contractual training period. Also includes support paid to the participant.

Work Experience:             Wages paid to a participant placed in a job by the grantee in order to assist the
                             participant by gaining practical work experience.

Training Assistance:         This is a category carried over from JTPA generally not used under WIA reporting.

Services Only:               Expenses related to participants that are only provided support service, with no
                             enrollment in training programs.

Administration:              Salaries and overhead costs related to general administration of the program and not
                             directly providing program services. Costs are limited under the grant agreement.

All Other Program:           Salaries and overhead related to overall running of the program not broken out in any
                             category above.




       ∗ IMC reported all costs as training that were not administrative, so this category would include all of the above
       types of cost other than administrative.

                                                                11
                                                                                Schedule A-1

                              IDAHO MIGRANT COUNCIL

                           SCHEDULE OF COSTS REPORTED
                                Supplemental Information
                            Program Year Ended June 30, 2001

                                                        Incurred
            Category                                      Costs       Subtotals

            1. Training
               A. Salaries and Fringe Benefits     $ 508,211
               B. Office Costs & Overhead            140,097
               C. Participant Tuition & Allowances    67,526
               D. Supportive Services                 40,249
               E. Work Experience Salaries            39,547
               F. OJT Contract Payments               19,498             815,128

            2. Administration
               A. Salaries and Fringe Benefits        $    47,219
               B. Office Costs & Overhead                  12,770
               C. Indirect Costs                           86,647        146,636

               Total                                  $   961,764    $   961,764


Note: The above information is not required to be reported to ETA, and was created by reviewing the
financial records used in the preparation of the Financial Status Report.




                                              12
                                                        Schedule B


                 IDAHO MIGRANT COUNCIL

           SCHEDULE OF PERFORMANCE REPORTED
               Program Year Ended June 30, 2001

Category                                      Planned   Reported

Total Participants                                826        742
 Total Terminations                               570        352
   Entered Unsubsidized Employment                114         60
       Direct Placement                             -          -
       Indirect Placement                           -          -
   Also Obtained Employability Enhancement          -          -
   Employment Enhancement Only                      -          -
   Services Only                                    -        245
   All Other Terminations                         456         47
 Total Current Participants (End of Period)       256        390




                                13
                                                             Schedule B-Continued

                              IDAHO MIGRANT COUNCIL

                      SCHEDULE OF PERFORMANCE REPORTED
                          Program Year Ended June 30, 2001

Terminology Used

Participants:                         Disadvantaged migrant and seasonal farmworkers
                                      and their dependents.

Total Participants:                   Participants that were provided any services during
                                      the program year. Includes participants carried
                                      over, new participants, and those exiting during the
                                      program year.

Total Terminations:                   Participants who exited the program during the
                                      year.

Entered Unsubsidized Employment:      Participants placed in a non-federally subsidized
                                      job.

Direct Placement:                     Participants referred directly to a job with no
                                      training services provided. (Detail not required to
                                      be reported under WIA).

Indirect Placement:                   Participants placed in a job after training or
                                      enhancement services. (Detail not required to be
                                      reported under WIA).

Also Obtained Employability
Enhancement:                          Participants placed that also received services
                                      improving job prospects, such as completing GED
                                      program, obtaining a degree, completing
                                      occupational training. (Detail not required to be
                                      reported under WIA).

Employment Enhancement Only:          Participants not placed in a job but exiting the
                                      program with enhancements to improve job
                                      prospects. See examples above. (Detail not
                                      required to be reported under WIA).




                                        14
                                                 Schedule B-Continued


Services Only:            Participants that exited the program with support
                          services only, with no training or referral to
                          employment.

All Other Terminations:   Participants that exited the program that do not fall
                          into any other termination category.




                            15
                                                                        Schedule C


                             IDAHO MIGRANT COUNCIL

                        SCHEDULE OF QUESTIONED COSTS


                                                              DOL Grant’s
Unsupported/Unallowable Costs Charged                        Share of Indirect   Questioned
         to Indirect Cost Pool                    Amount          Costs            Costs

Unallowable Legal Fees (page 6)                    $47,521        .10109              $4,804

Unsupported Travel Costs (page 7)                    8,916        .10109                901

Non-federal Costs – Award Plaques (page 7)            132         .10109                 13

Subtotal                                            56,569        .10109               5,718

Less: Unallowable Legal Fees Removed from
      Indirect Cost Pool by Grantee in            <47,521>        .10109             <4,804>
      response to Draft Report

Total                                               $9,048        .10109               $914




                                             16
                   Appendix A
Response to Draft Report by the Idaho Migrant Council




                         17
18
19
20
21
22
23
24
25
26
27
28
